<html>
<title> - 21ST CENTURY CONSERVATION PRACTICES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  21ST CENTURY CONSERVATION PRACTICES

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                              THE INTERIOR

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2016

                               __________

                           Serial No. 114-75

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               ___________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
22-195 PDF                WASHINGTON : 2016                   
              
________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e594e517e5d4b4d4a565b524e105d515310">[email&#160;protected]</a>  
          
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
       Bill McGrath, Staff Director, Subcommittee on the Interior
                           Willie Marx, Clerk
                      Subcommittee on the Interior

                  CYNTHIA M. LUMMIS Wyoming, Chairman
PAUL A. GOSAR, Arizona               BRENDA L. LAWRENCE, Michigan, 
BLAKE FARENTHOLD, Texas                  Ranking Member
KEN BUCK, Colorado, Vice Chair       MATT CARTWRIGHT, Pennsylvania
STEVE RUSSELL, Oklahoma              STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2016...............................     1

                               WITNESSES

Ms. Judith D. Schwartz, Author
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Byron Shelton
    Oral Statement...............................................    12
    Written Statement............................................    14

 
                  21ST CENTURY CONSERVATION PRACTICES

                              ----------                              


                      Tuesday, September 13, 2016

                  House of Representatives,
                      Subcommittee on the Interior,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:50 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Cynthia M. 
Lummis [chairman of the subcommittee] presiding.
    Present: Representatives Lummis, Buck, Palmer and Lawrence.
    Mrs. Lummis. The Subcommittee on the Interior of the 
Committee on Oversight and Government Reform will come to 
order. This hearing is somewhat unique, in that it's totally 
about the future, the government reform component of OGR's 
responsibility.
    In order to set the stage for this discussion, I want to 
explain why the subject is so important to me and why it should 
be important to Congress. Let's step back into Mr. Peabody's 
Way Back Machine and turn the dial to the 1970s. The 1970s were 
a time of major environmental and natural resource lawmaking. 
The EPA was created in 1970; the Clean Water Act was passed in 
1972; the Endangered Species Act in 1973; and FLPMA, the 
Federal Land Policy Management Act, in 1976. Incidentally, I 
was in high school and college during those years and took 
classes in both range management and soil science in college. I 
also had some really bad hairdos, but we won't go there.
    All right. Roughly 40 years have passed. Scientific 
knowledge has grown leaps and bounds. What was settled science 
back then is now very different. Global cooling science from 
the 1970s is now global warming science. We know only one thing 
for sure: science is never settled.
    Range science is among the scientific disciplines that have 
evolved exponentially since I took a range management class in 
college over 40 years ago. We are going to hear about some of 
those practices today, those modern practices, which were 
neither contemplated nor accommodated in our 40-year natural 
resource management statutes. Rules and policies adopted 
recently in this decade are based on old laws and old science. 
Some of these rules implement practices that may accelerate 
desertification. There is a better way.
    For the sake of our range health, let's explore modern soil 
science and grassland health. Modern holistic practices can 
inform natural resource laws, rules, and practices. 99.9 
percent of the Bureau of Land Management land in the U.S. is in 
11 western States. It is mostly grassland, a huge carbon 
sequestration resource.
    We are grateful today for the testimony of witnesses who 
can attest to 21st century conservation practices that are 
restoring health to soils and grassland resources.
    I also want to thank Ranking Member Lawrence for this 
departure from normal hearing processes to view the following 
excerpt from a Ted talk delivered by Allan Savory, a global 
leader in regenerative land and resource management. Now, Mr. 
Savory would have been here today to testify, but he is with 
Prince Philip in England talking about these very same issues, 
so he was unable to attend.
    But would you please show us his Ted talk?
    Mr. Savory. ``Desertification is a fancy word for land that 
is turning to desert, and this happens only when we create too 
much bare ground. There is no other cause. And I intend to 
focus on most of the world's land that is turning to desert. 
But I have for you a very simple message that offers more hope 
than you can imagine. We have environments where humidity is 
guaranteed throughout the year. On those, it is almost 
impossible to create vast areas of bare ground no matter what 
you do. Nature covers it up so quickly. And we have 
environments where we have months of humidity followed by 
months of dryness, and that is where desertification is 
occurring.
    Fortunately with space technology now, we can look at it 
from space, and when we do, you can see the proportions fairly 
well. Generally what you see in green is not desertifying, and 
what you see in brown is, and these are by far the greatest 
areas of the earth. About two-thirds, I would guess, of the 
world is desertifying. I took this picture in the Tihamah 
Desert while 25 millimeters, that is an inch of rain, was 
falling. Think of it in terms of drums of water each containing 
200 liters.
    Over 1,000 drums of water fell on every hectare of that 
land that day. The next day, the land looked like this. Where 
had that water gone? Some of it ran off as flooding, but most 
of the water that soaked into the soil simply evaporated out 
again, exactly as it does in your garden if you leave the soil 
uncovered.
    Now, because the fate of water and carbon are tied to soil 
organic matter, when we damage soils, you give off carbon, 
carbon goes back to the atmosphere.
    Now, you are told over and over repeatedly that 
desertification is only occurring in arid and semiarid areas of 
the world and that tall grasslands like this one, in high 
rainfall, are of no consequence, but if you do not look at 
grasslands, but look down into them, you find that most of the 
soil in that grassland that you have just seen is bare and 
covered with a crust of algae, leading to increased runoff and 
evaporation. That is the cancer of desertification that we do 
not recognize till its terminal form.
    Now, we know that desertification is caused by livestock, 
mostly cattle, sheep, and goats overgrazing the plants, okay, 
leaving the soil bare and giving off methane. Almost everybody 
knows this, from Nobel laureates to golf caddies, always taught 
it, as I was.
    Now, the environments like you see here, dusty environments 
in Africa, where I grew up, and I loved wildlife, and so I grew 
up hating livestock because of the damage they were doing, and 
then my university education as an ecologist reinforced my 
beliefs. Well, I have news for you. We were once just as 
certain that the world was flat. We were wrong then, and we are 
wrong again. And I want to invite you now to come along on my 
journey of reeducation and discovery.
    When I was a young man, a young biologist in Africa, I was 
involved in setting aside marvelous areas as future national 
parks. Now, no sooner--this was in the 1950s. And no sooner did 
we remove the hunting, drumbeating people to protect the 
animals, than the land began to deteriorate, as you see in this 
park that we formed. Now, no livestock were involved, but 
suspecting that we had too many elephants now, I did the 
research and I proved we had too many, and I recommended that 
we would have to reduce their numbers and bring them down to a 
level that the land could sustain. Now, that was a terrible 
decision for me to have to make, and it was political dynamite, 
frankly, so our government formed a team of experts to evaluate 
my research. They did. They agreed with me. And over the 
following years, we shot 40,000 elephants to try to stop the 
damage, and it got worse, not better. Loving elephants as I do, 
that was the saddest and greatest blunder of my life, and I 
will carry that to my grave. One good thing did come out of it. 
It made me absolutely determined to devote my life to finding 
solutions.
    When I came to the United States, I got a shock to find 
national parks like this one desertifying as badly as anything 
in Africa, and there had been no livestock on this land for 
over 70 years. And I found that American scientists had no 
explanation for this except that it is arid and natural.
    So I then began looking at all the research plots I could 
over the whole of the western United States where cattle had 
been removed to prove that it would stop desertification, but I 
found the opposite. As we see on this research station where 
this grassland that was green in 1961, by 2002 had changed to 
that situation. And the authors of the position paper on 
climate change from which I obtained these pictures attribute 
this change to unknown processes.
    Clearly we have never understood what is causing 
desertification, which has destroyed many civilizations and now 
threatens us globally. We have never understood it. Take one 
square meter of soil and make it bare like this is down here, 
and I promise you, you will find it much colder at dawn and 
much hotter at midday than that same piece of ground if it is 
just covered with litter, plant litter. You have changed the 
microclimate. Now, by the time you are doing that and 
increasing greatly the percentage of bare ground on more than 
half the world's land, you are changing macroclimate, but we 
have just simply not understood why was it beginning to happen 
10,000 years ago, why has it accelerated lately. We had no 
understanding of that.
    What we had failed to understand was that these seasonal 
humidity environments of the world, the soil and the 
vegetation, developed with very large numbers of grazing 
animals and that these grazing animals developed with ferocious 
pack hunting predators. Now, the main defense against pack 
hunting predators is to get into herds, and the larger the 
herd, the safer the individuals. Now, large herds, dung and 
urinate all over their own food, and they have to keep moving, 
and it was that movement that prevented the overgrazing of 
plants, while the periodic trampling ensured good cover of the 
soil, as we see where a herd has passed.
    This picture is a typical seasonal grassland, it has just 
come through 4 months of rain and it is now going into 8 months 
of dry season, and watch the change as it goes into this long 
dry season. Now, all of that grass you see aboveground has to 
decay biologically before the next growing season, and if it 
doesn't, the grassland and the soil begin to die. Now, if it 
does not decay biologically, it shifts to oxidation, which is a 
very slow process, and this smothers and kills grasses, leading 
to a shift to woody vegetation and bare soil, releasing carbon.
    To prevent that, we have traditionally used fire, but fire 
also leaves the soil bare, releasing carbon. And worse than 
that, burning one hectare of grassland gives off more and more 
damaging pollutants than 6,000 cars, and we are burning in 
Africa every single year more than 1 billion hectares of 
grasslands, and almost nobody is talking about it. We justify 
the burning as scientists, because it does remove the dead 
material and it allows the plants to grow.''
    Mrs. Lummis. Well, that is just a segment of the Ted talk. 
I recommend that you see it in its entirety; it is very 
impressive. And I happen to know, because I ranch in Wyoming. 
My family purchased the ranch next door. It had a Savory 
grazing system on it named after Allan Savory, the gentleman 
you just saw in the Ted talk. So it was 2,600 acres, it was 
divided into 16 grazing cells, and we would put very large 
numbers of cattle into each cell, and they would graze it down 
to the nubs, and then we would move them frequently from cell 
to cell using the same herding ideas that were expressed that 
occur naturally in the wild in Zimbabwe and elsewhere in 
Africa. By doing that, it did heal up some of the draws that 
were bare of all grasses and the grass did return, because you 
had the hoof action of the cattle depositing with their manure 
nutrients into the soil that were compacted into the soil by 
their split-hooved hooves before they were moved into the next 
pasture.
    So I can attest to the fact that Allan Savory's theories 
have worked on the ground in places, including the land that I 
worked as a rancher, and so it is something that we should 
discuss in terms of looking forward about how we manage public 
lands and present--or excuse me--prevent damage to our natural 
resources inadvertently.
    With that, I now recognize Mrs. Lawrence, ranking member of 
the Subcommittee on the Interior, for her opening statement.
    Mrs. Lawrence. Thank you, Madam Chair. I do want to say, 
being a city girl born and raised, I have learned a lot from 
you.
    The United States has over 770 million acres of grazing 
land. These lands are important to both our agriculture and the 
environment. Grasslands provide pasture for livestock, but also 
act as a natural erosion control habitat for a diverse and 
sometimes even endangered species, and reservoirs for carbon 
dioxide that would otherwise be released into the atmosphere.
    While the environment is healthier, more resources exist 
for agricultural purposes. It goes without saying that if there 
is no forage, cattle simply cannot graze. Our ecological goals 
are intertwined with protecting the livelihood of farmers and 
ranchers.
    As we will hear from our witnesses today, effective grazing 
practices actually offer the potential to help restore the 
quality of our grasslands. The movement of hooved animals turn 
the soil, allowing it to retain more water and nutrients. This 
boosts our soil quality and encourages future plant growth, and 
reduces the risks of destructive wildfires through the natural 
bush clearing.
    But grazing practices are not one-size-fit-all; rather, 
different environments may require different management 
practices for maximum benefit. According to the Natural 
Resources Conservation Service, animals should be moved from 
one area to the other, as the expert has told us, in a way that 
truly gives natural cycles a chance to occur and the plants an 
opportunity to regrow before the sections of land are grazed 
again. This principle is important to what we will discuss 
today, meeting the needs of livestock and ranchers while 
optimizing benefits to the environment.
    I look forward to hearing from our witnesses, and I yield 
back my time.
    Mrs. Lummis. Thank you.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Ms. Judith Schwartz, author of ``Cows Save the 
Planet and Other Improbable Ways of Restoring Soil to Heal the 
Earth''; and Mr. Byron Shelton, senior program director of the 
Savory Institute. Welcome to you both.
    Pursuant to committee rules, witnesses will be sworn in 
before they testify, so please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. The witnesses answered in the affirmative.
    Please be seated.
    In order to allow time for discussion, we ask you to limit 
your oral testimony to 5 minutes, but because we have some time 
to talk very casually and prospectively about these issues, we 
will have plenty of time for questions. Your entire written 
statement will be made part of the record.
    So, Ms. Schwartz, we will begin with you. You are 
recognized for 5 minutes. Welcome.

                       WITNESS STATEMENTS

                STATEMENT OF JUDITH D. SCHWARTZ

    Ms. Schwartz. Thank you. Is this on? Am I good?
    Mrs. Lummis. It sounds like it's not on. Yeah. Is there a 
button--see the button?
    Ms. Schwartz. ``Talk''?
    Mrs. Lummis. There you go.
    Ms. Schwartz. Thank you to Congresswoman Lummis, Ranking 
Member Lawrence, and members of the Interior Subcommittee for 
this opportunity. I am before you today as an author of two 
books that explore animal-land dynamics, particularly the 
potential for holistic livestock management to regenerate 
landscapes.
    ``Cows Save the Planet'' looks at soil as a hub for our 
environmental, economic, and social challenges, and for 
solutions. ``Water in Plain Sight'' explores how water 
intersects with climate, biodiversity, food security, and peace 
and conflict, and how understanding how water works, how it 
moves across the landscape helps us address such concerns.
    Understand, that I never expected to be on this beat; 
rather, as a journalist driven to explore solutions, I was 
drawn to the elegant complexity of flourishing ecosystems and 
the promise of drawing on nature's models to restore balance 
and vitality to our lands, including through holistic managed 
grazing.
    Basically, whenever there are animals on the land, those 
animals are having an impact, which can be positive or negative 
depending on how they are managed. The paradigm for 
conservation has changed, in that land is not static, but 
requires biological activity. In nature, plants are to a large 
extent managed by herbivores and those plant-eating animals are 
managed by predators. The alteration of the landscape in the 
absence of natural predators have left a management void. With 
what we now understand about rangeland systems, this void can 
be filled in a way that at once bolsters ecological function 
and economic opportunity.
    In my reporting, I've encountered numerous examples of land 
transformed by restorative grazing. At Zimbabwe at the Africa 
Center for Holistic Management, the Dimbangombe River flows a 
kilometer farther than it has in living memory and now runs 
throughout the year. Despite drought in southern Africa, this 
land remains productive and supports abundant wildlife, 
including elephant and lions.
    In the Chihuahuan Desert, which spans several states in 
part of Mexico, I visited an area where holistic ranchers are 
working with bird conservation organizations to create a 
corridor for endangered migratory grassland birds. These 
ranches are islands of grass for the birds, whose numbers have 
steeply declined due to desertification throughout the region.
    In Australia, a rancher I interviewed uses cattle to 
control excess vegetation, and thus minimize the extent of 
wildfires.
    In each instance, management entails inquiring how nature 
maintained healthy conditions, and finding ways to mimic or 
ally with those processes.
    Agriculture, including ranching, need not be an extractive 
industry. It can be regenerative too, as well as consistent 
with conservation goals. This was noted at COP 21, the global 
climate conference in Paris last December, with the advent of 
the 4 per 1,000 Initiative introduced by the French 
Agricultural Ministry. This initiative, signed by 30 plus 
nations and several dozens NGOs, calls attention to 
agricultural means of bolstering carbon levels in the soil. 
Even at a modest annual rate, increasing soil carbon stocks has 
important implications for drawing down CO2, bolstering 
fertility and biodiversity, and enhancing land's ability to 
retain water, which means added resilience amid the threat of 
drought, floods, and wildfires.
    Every 1 percent increase in soil organic matter, which is 
mostly carbon, represents an added 20,000 gallons of water per 
acre that can be held on the land. The loss of this capacity is 
a story that has been written across much of the U.S., leading 
to many of our challenges that we face today.
    My recommendation is that we do not leave land bare and 
languishing and hope that it will somehow improve; rather, we 
should explore strategies that work with natural processes, 
including holistic planned grazing, restoring the predatory-
prey relationship, and reviving populations of keystone 
species, such as beaver.
    One way to ascertain progress is through monitoring basic 
factors, such as water infiltration and soil carbon levels.
    Thank you.
    [Prepared statement of Ms. Schwartz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. Thank you, Ms. Schwartz.
    And Mr. Shelton, you are recognized for 5 minutes.


                   STATEMENT OF BYRON SHELTON

    Mr. Shelton. Honorable House Members, thank you for the 
opportunity to share conservation practices related to grazing. 
I am Byron Shelton, senior program director for Savory 
Institute.
    Allan Savory, the scientist, ecologist, and farmer, has 
worked years to understand and train others in managing land 
regeneratively. This effort has resulted in holistic 
management. Managing holistically considers the whole picture, 
including economic, environmental, and social considerations 
simultaneously, both short and long-term.
    Savory Institute was formed to promote large-scale 
restoration of the world's grasslands. Grasslands comprise one-
third of the world's land surface, 70 percent of which are 
degraded. Savory Institute has 30 training centers worldwide, 
including demonstration sites and accredited professionals. 
Currently, over 40 million acres worldwide are being managed 
holistically.
    With that background, I would like to get right to the crux 
of the matter. If I could have--I have two photos. The first 
photo at this point could be put up. To allow for reasonable 
debate and decisions on grazing, a clear understanding of the 
role of the grazing animal is needed. A land manager may say, I 
wish it would rain, causing more plant growth. Just as 
important is the need for water for plants to decay. Nutrients 
have to cycle back to regenerate soil. Decay occurs through 
microorganisms and insects, which need water to live.
    With regular humidity and rainfall, as in this photo of the 
midAtlantic region, plants will grow, then biologically decay 
onto and into the ground, replenishing the soil, as water 
exists for the microorganisms and insects to live. You could go 
to the second photo, please.
    Now comes the point that is not generally recognized. With 
irregular humidity and rainfall, as in many of our western 
lands, plants remain standing for years, as water is limited 
for microorganisms that would cause biological decay. These 
plants turn gray, oxidize into the air, mine the soil by not 
returning to it, and die, creating bare ground, poor water and 
nutrient cycles, and biodiversity loss. This variation in 
regularity of humidity and seasonal rainfall is referred to as 
brittleness. Nonbrittle environments have regular humidity and 
moisture, where brittle-leaning environments have irregular 
humidity and moisture.
    What does this have to do with grazing? A bison, elk, deer, 
antelope, or cow, sheep, or goat can't digest plants any more 
than you or I, but these ruminants, as they are called, have a 
multi-chambered stomach full of moisture and microorganisms. 
These microbes digest the plants the animals chew. The 
ruminant, wild or domestic, is a mobile digestive vat moving 
about the land, breaking down plant material and returning it 
as dung or urine to replenish the soil.
    When this animal is removed from brittle environments, this 
system is broken. This system is also broken by removing the 
predator that kept the herding animals bunched and moving, 
allowing for grazed forages to recover by regrowing roots and 
leaves between grazings. Herding and fencing replaces the 
predator. The hooves aerate the soil that has been sealed by 
rainfall, to allow for water to enter, making the rainfall more 
effective, and trampling the old plant material.
    With bison or cattle, two tools are being managed: grazing 
and animal impact. Holistic management uses holistic plant 
grazing to manage these tools properly for regeneration of the 
natural resources.
    Regardless of whether one eats meat, wildlife and their 
predators or domestic livestock being managed to mimic nature 
are required in these brittle areas for a healthy ecosystem, 
biodiversity, and drinking water.
    Savory Institute's work addresses food production, water 
quality and quantity, soil health, carbon sequestration, 
wildlife and plant conservation, and climate change.
    Land managers are increasing their profits while building 
biological capital, producing food and water on regenerating 
soils. Livestock, wildlife, plants, and human needs can be met 
simultaneously.
    Holistic management is appealing to conservative and 
liberal values. Managing holistically is economically viable, 
while restoring the environment and meeting the needs of the 
people involved.
    Thank you.
    [Prepared statement of Mr. Shelton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lummis. I thank the witnesses. And now we will have a 
period of questioning. I will recognize myself for 5 minutes.
    Thank you again both for being here. What is inspiring and, 
I believe, hopeful about your testimony is, Mr. Shelton, what 
you noted near the end of your testimony, is this is something 
that conservatives and liberals can find some agreement on and 
move forward in a way that improves our land resources. So let 
me begin my questioning with you.
    Mr. Shelton, you're from Colorado. Can you explain to me 
what the Savory Institute does to help it either demonstrate 
effective land management or assist with improving rangeland 
quality in the western United States?
    Mr. Shelton. Yes, I can. We work to demonstrate ourselves 
as the headquarters kind of part of the organization, we 
collaborate on special projects with strategic partners, Heifer 
International, the Nature Conservancy, we work to have a--we 
have a worldwide network of regional training centers, or hubs, 
both in the brittle and nonbrittle environments, we have a hub 
in Michigan with Michigan State University, we collaborate with 
them to provide training for on-the-ground practitioners and 
managers of land.
    We see our role at the institute based in Colorado is also 
to remove barriers and improve conditions, and we see that 
primarily through informing policy, coordinating for relevant 
research is important, establishing market incentives, and 
working to increase public awareness.
    And I would say to your first comment, as I work with 
different managers on the land and people involved, wherever I 
go, it totally does involve people across the political 
spectrum, because we're looking for what is it you want, what 
do you want the land to be like, therefore, do we understand 
what the actions we might do will give us, and how do we go 
about monitoring the ecosystem to make sure it works, and so 
it's not a--it takes the emotion out of it and really works 
toward getting the answers people desire on the land.
    Mrs. Lummis. Ms. Schwartz, in your research and study of 
these subjects, do you find that Federal policies are always 
consistent with a good result on the ground, or do you think 
there are ways that we could apply some of these new scientific 
discoveries on old grazing practices that could be useful in 
managing Federal lands in the future?
    Ms. Schwartz. Absolutely. I haven't studied in particular 
Federal lands, but we know that much of the land that is under 
the auspices of the government at this point is desertifying, 
is deteriorating and degrading, whichever term you choose, and 
a lot of that does have to do with a lack of understanding of 
how these ecological processes work.
    And one point that I made that I can highlight here is that 
our appreciation of what conservation means, that paradigm has 
shifted, because we understand the complexity involved in a 
functioning ecosystem. And one example, I'd like to talk about 
that example of the Chihuahuan Desert, because one would not 
expect conservation professionals and ranchers to be on the 
same page. However, what they found, that--even though the 
conservation organizations were focused on the birds, what they 
found was what was good for the animals was also good for the 
birds, and that the synergies, the biological synergies of the 
animals' action on the land when they were managed 
appropriately, that creates the conditions for the birds to 
thrive.
    So there were these areas where there were--as one wildlife 
biologist said, were very birdy, you know, that these birds 
were really doing very well there, and then areas where you 
could see a little bit of mesquite, and otherwise it was just, 
you know, dust blowing around, and birds would have nowhere to 
alight, nowhere to find safety or food. So the point being that 
all those needs could be met together.
    Mrs. Lummis. My time has expired. I will now recognize the 
gentlelady, who is ranking member of this committee, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you so much.
    Cattle are frequently considered significant contributors 
to climate change because they are responsible for 18 percent 
of the U.S. methane emissions, a gas that has 23 times the 
warming effect of carbon dioxide.
    Ms. Schwartz, you study soil health, and note that the 
positive impacts of healthy soils can extend way beyond its 
ability to encourage plant growth. In fact, healthy, nutrient-
rich soil, created in part by fish and cattle managing 
processes, can work to directly counter climate change. Can you 
briefly walk us through how the movement of cattle sequesters 
carbon in the soil?
    Ms. Schwartz. Okay. First I do feel the need to 
specifically address the methane question----
    Ms. Lawrence. Okay.
    Ms. Schwartz. --because, again, that has so much to do with 
how the animals are managed. So if you have cattle in very 
close proximity and feedlots, and their waste is going into 
lagoons, that is a prime scenario for the production of 
methane. However, what's often not understood--so blaming the 
cattle for that, you know, that's our management decisions, but 
also in a natural system, in the soil, in healthy, diverse 
living soil, there are organisms that consume methane, they are 
called methanotrophs, these are bacteria.
    So if you have healthy grassland, then you've got a cycle 
within the larger carbon cycle in which there is no methane 
problem, because the methane is emitted, the methane is 
consumed by these organisms, and so it's all in balance. So 
that is not a problem, and I think it's important to have that. 
Did I get that?
    Mr. Shelton. Yes. I agree.
    Ms. Schwartz. Did I nail that? Okay.
    Wow, climate. I hope it's okay if I--I'm going to kind of--
I want to just expand a little bit on climate change, because I 
think it's really also important to have that in context too.
    So when we talk about climate change, particularly in 
policy and journalism circles, we are often--the phrase tends 
to be understood as shorthand for too much CO2 in the 
atmosphere largely from the burning of fossil fuels. So that's 
important, but I feel that that definition, that understanding 
of climate change limits us, so the way--my working definition 
of climate change is manifestations of distorted carbon, water, 
and energy cycles. And when we look at it that way, then we can 
start to roll up our sleeves and say, how might we bring those 
cycles back into balance.
    Mrs. Lawrence. For the record, I agree with you on that 
definition.
    Ms. Schwartz. Okay. Okay. Thank you. So by bringing in the 
cattle, the animal impact into that--okay. So we've got lots of 
things happening.
    Mrs. Lawrence. Yes.
    Ms. Schwartz. So the animal activity is bringing carbon 
into the soil through the waste, through the burying--the 
bringing into the ground of the organic matter, the plant 
matter, and having it be worked up upon by the microorganisms, 
and by keeping the range lands healthy, this bolsters the 
production of deep-rooted plants, which draw carbon down, one--
--
    Mrs. Lawrence. Ms. Schwartz, I just want to--I want to 
get----
    Ms. Schwartz. Please.
    Mrs. Lawrence. --a question in to----
    Can you explain how the decertification of grasslands 
causes these massive wildfires and how effective cattle grazing 
has the potential to reduce their occurrence? Mr. Shelton, do 
you have any comments on that?
    Mr. Shelton. If there's a lot left there to burn that could 
be put into the air, why wasn't it eaten or put back onto the 
ground, maybe partly each way, to build the soil. It came from 
the soil, so it needs to go back.
    In those areas with that regular humidity, like I was 
saying earlier, it will do that naturally. In the areas where 
that is seasonal, then the large herding animal played that 
role. So there they are putting it back on the ground, but then 
that generates more to grow. Well, that's great. We've got more 
food production, more wildlife production, it's a continuing 
cycle, and we need to look at it that way as improving 
production to feed humans and wildlife as opposed to just 
seeing the effect of the problem and trying to get rid of a low 
level succession of a lot of weeds that would burn.
    Mrs. Lawrence. Thank you. I yield back my time.
    Mrs. Lummis. The chair recognizes the gentleman from 
Colorado, Vice Chairman. Mr. Buck, you are recognized for 5 
minutes.
    Mr. Buck. Thank you.
    This question really goes to both of you, and feel free to 
take it in whatever order you'd like, but you talked about how 
these grazing practices could improve the land. Have the 
Federal agencies been open to your suggestions on this issue?
    Mr. Shelton. Yes is the short answer. The long----
    Mr. Buck. Give me the long one too.
    Mr. Shelton. The longer answer is when the new ideas came 
out when Allan started working back in the 1970s and 1980s, 
there was more resistance than today. And who knows why the 
reason, it just--it was challenging some with current thought, 
but even since that day, but certainly now, there is more 
acceptability. It is very much dependent upon individuals 
within each agency, whether it's the BLM, the Forest Service, 
or the NRCS, but we have very good support.
    I have leased land, I have ranched with tremendous support 
from State agencies or the Natural Resources Conversation 
Service as the planned grazing we do meets and exceeds their 
prescribed grazing, and they work with us and are willing to 
let us do that.
    Sometimes, though, regulations, as was indicated at the 
beginning of opening statement, are--they force a one-size-
fits-all method. Every situation is different. Every piece of 
land down the road, be it farm, ranch or communal area has 
different people involved, different needs, and different 
economics. They need to use the principles of how land is 
managed and what the results will be to create what they 
desire, and that would be, in my eyes, the best practice as 
opposed to coming up with specific strategic actions that are 
best practices, because they can't always be.
    Mr. Buck. Ms. Schwartz, have you had any experience working 
with the Federal Government on these issues?
    Ms. Schwartz. I haven't.
    Mr. Buck. Okay. Let me ask you something. The chair 
mentioned something that's interesting to me. I guess it's the 
role of the fence in terms of grassland management or range 
management. With the vast ranches that we have in Colorado and 
Wyoming and the west in the high arid desert, how do we create 
the incentive for our four-legged critters to move from one 
area to the other to accomplish the goal that I think you're 
both talking about?
    Mr. Shelton. We have to be the predator, and that's done 
through herding or fencing or a combination.
    Mr. Buck. Now, you're talking to a prosecutor, so make sure 
you use the word ``predator'' carefully, because I used to 
prosecute a lot of those folks.
    Mr. Shelton. Well, then let's definitely clarify that.
    Mr. Buck. Okay.
    Mr. Shelton. The predator of the livestock that makes them 
want to stay together and moving. If you're a grass plant and 
you get bitten off, you're made to do that, but then as you 
start to regrow, you've got to let the sunlight be able to 
light and regrow roots and leaves so then you're ready to go 
again, and that's when you put carbon in the soil.
    If we don't have a predator moving the herd along, again, 
we do that today easier because we don't have enough wildlife, 
so through livestock to create habitat for more wildlife. 
Through livestock with it's man-managed fencing and/or herding 
combination, we're allowing that land to not be overtrampled or 
overgrazed; it's grazed, it's left until it regrows, and then 
that's--it functions well that way, because it's supposed to. 
It's a management issue, it's not a numbers of livestock or a 
livestock issue, and it's a lack of predator problem.
    Now, how do we put that back when we live there now and 
there's people making a living. Well, that's when we need to 
understand how it works so we can come up with creative answers 
that meet each situation. But the short answer, the fence keeps 
them moving so that they don't stay in the one area like--well, 
there you go.
    Mr. Buck. Thank you.
    Thank you, Chair. I yield back.
    Mrs. Lummis. Among the things that we've dealt with is if 
you had livestock herders who really could stay with livestock 
while they were on large expanses, public lands, it would allow 
them to keep the animals bunched and then allow them to 
continue to move them on in a way that would mimic the four-
legged predators that kept that cycle going, for example, in 
Africa.
    One of the things we do is through our own Department of 
Labor rules, we have a one-size-fits-all regulation that 
prevents it from being economically viable to hire herders to 
be out with livestock on the open range or in forests, and so 
we can even look at our own Department of Labor regulations as 
a way to exempt cattle herding, sheep herding from one-size-
fits-all, more urban-focused Department of Labor regulations. 
That's just one example.
    The chair now recognizes the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Ms. Schwartz when we hear that a system of grazing 
management is not prescriptive, because all land is different, 
what exactly does that mean?
    Ms. Schwartz. It means that what works in one place doesn't 
necessarily work in another.
    I think I need your help with this.
    Mr. Shelton. Sure. No problem.
    Mr. Palmer. Actually, I think that's a good answer.
    Ms. Schwartz. Oh. Okay. Okay.
    Mr. Palmer. And the logical conclusion from that is is that 
some of our Federal agencies need to understand that.
    Ms. Schwartz. Yeah. That--that makes sense.
    Mr. Palmer. That one size does not fit all.
    Ms. Schwartz. Right. And I think that's something that Mr. 
Shelton was alluding to. And when I mentioned at the end here 
in my suggestions that monitoring is often a very effective way 
of knowing that you're right, you're doing the right thing, as 
opposed to checking off the boxes, did I do this, did I follow 
this, because then you're looking at how it's actually working. 
And there are some really simple ways of monitoring water 
infiltration, how much water you're absorbing, and also the 
soil carbon accumulation.
    And just another thing to mention along those lines is that 
the tools that we have now for assessing land changes with the 
satellite, mapping, and--interactive mapping and citizen 
science initiatives, it's really pretty extraordinary and 
potentially very powerful.
    Mr. Palmer. Either one of you can comment or answer on 
this, and I'm not an expert in this, I grew up on a farm in 
northwest Alabama, and very humid climate, so we didn't have 
some of the issues that they have out west, but just looking at 
it from a historical perspective and watching the video 
earlier, I can't help but think about pre-expansion out west, 
the huge herds of buffalo, the antelope, things like that.
    Are we talking about--basically talking about the same 
things when we're talking about grazing and having herds that 
occupy the land that help maintain these grasslands? Because 
looking at the map that he showed, it's obvious that what was 
grasslands 150 years, 200 years ago, maybe longer than that, 
we're losing those. Does that make sense?
    Ms. Schwartz. Yeah. Well, I guess one of the insights that 
Allan Savory had, and he--and he said he wasn't alone in having 
this insight, but he articulated it very well, is that 
grasslands and grazing animals co-evolved, so that the land 
needs the animals in the same way that the animals need the 
land. And then he also made the observation that land can be 
undergrazed as well as overgrazed.
    So the lack of all those animals, when we think about the 
millions and millions of bison across our Great Plains and how 
that was managing that ecosystem.
    Mr. Palmer. And then that ecosystem, it was holistic in the 
sense that the bison herds helped preserve the grasslands, but 
also were a source of food and clothing and shelter for native 
tribes, so it all worked together. And obviously we're not 
going back there, so it leads to the conclusion that in terms 
of a holistic approach to land management, introducing cattle 
and other animals, and that industry becomes very significant 
for restoring the land.
    And this is part of what bothers me about some of the 
environmental claims and the issues that they bring up in the 
context of climate change and wanting to get rid of the cattle 
industry and things like that. What are we going to do? Are we 
going to go back to millions of buffalo and--you know?
    I think the bottom line here is that we're doing more harm 
than good. Would you agree with that?
    Ms. Schwartz. We're doing more harm than good in what 
context?
    Mr. Palmer. In the context of the damage that's being done 
to the land, how----
    Ms. Schwartz. As it's----
    Mr. Palmer. --and how the land is turning into desert, 
because we've stepped into an area that nature kept it healthy. 
Obviously things have changed, we're not seeing millions of 
buffalo running across the plains anymore, so we've replaced 
that with agriculture and--and farming of cattle. And if we 
eliminate the cattle industry, then the land is going to suffer 
as a result.
    Mr. Shelton. The land is suffering as a result, yes. The 
grasslands created by the relationship between the animals and 
the land, this is where our biggest topsoils are, this is where 
land can sequester more carbon than even some of the 
forestland. This is what we've torn up to put in our croplands 
because the soil is so good. This is what we're now needing to 
figure out how to maintain before they run out.
    You know, 22 civilizations or so came and went. They didn't 
have the technology we have now, but they still mismanaged 
their soil and water base. This really isn't even about just 
grazing in an animal, whether you're choosing a dairy on an elk 
that you want to have there, or a beef cattle; this is about 
keeping the soil covered so that plants grow, so it regulates 
the earth's temperature and even probably most importantly, 
gives us water.
    The watersheds here in the Chesapeake Valley, they are no 
different than the ones in the west. They're masked a little 
bit, it's a little harder to see the soil erosion and the water 
we're losing. So it is trying to--what we're trying to do is 
make the point that along with many forms of technology, fire 
when it's needed sometimes, rest, in other words, no 
disturbance of any kind, we need to have in our toolbox also 
properly managed livestock and their predator to make land 
function.
    Mr. Palmer. One last point, and I realize I've gone over my 
time, Madam Chairman, but you brought up proper burning 
techniques, and I think in the video it was mentioned that 
burning one hectare of grasslands released more dangerous gases 
into the atmosphere than 6,000 automobiles.
    And I think about what's going on in California and the 
wildfires out there, and, again, going back to Federal policy 
for land management, you can't cut in firebreaks like you used 
to, you don't have the road access, and we are seeing hotter 
fires burning more acres, and that's also a major concern of 
mine and how that--the damage that that does.
    I do think the importance of this discussion we're having 
today in the context of Federal land management, we really need 
to emphasize this, that we've made some policies that I think 
are doing more harm than good.
    I yield back.
    Mrs. Lummis. I thank the gentleman.
    And now I want to ask each of you to spend 5 minutes with 
concluding about questions that you wish you would have been 
asked but weren't, statements that you want on the record for 
policymakers, but among those, I would like you to address 
whether you believe that Federal policymakers could experiment 
with some of the techniques that you see as improving grassland 
health in a way that could be replicated on the larger Federal 
landscape. In other words, are there demonstration projects 
that you can point to that have been done thus far that we 
might be able to use as examples for pilot projects on Federal 
lands? And in doing so, I want to thank you both so much for 
being here.
    The gentleman from Colorado, Mr. Shelton, is recognized 
first.
    Mr. Shelton. Thank you. There are case studies where this 
has been demonstrated on the land already that are available. 
Yes, it could be done and replicated on Federal lands also. 
Probably--and I do believe that. The key, though, is because of 
the simple concept of regularity of humidity that I brought up 
earlier and that Allan mentioned in his Ted talk, if you used 
the tool of--any tool, say, fire, in a brittle-leaning area 
versus a nonbrittle or one with regular humidity, you will get 
a different result. This concept of that regularity takes 
everything we could do to the land and eliminates the 
possibility that we could have a one answer for every area, 
because it doesn't work.
    We work to see and learn what will the probable results be 
if we use this tool in an area based on its degree of that 
regular humidity. It sounds simple, but that just is so 
important to understand.
    What we also do, though, is whatever piece of land we're 
working with, you've got to get the right decisionmakers at the 
table, you've got to draw on the experts when you need input, 
but you've got to have the decisionmakers know what is it they 
want, what is the quality of life values they want for that 
property, and also what do they want that land to look like in 
the future, what will that future resource base be, what will 
the landscape look like?
    Then we choose actions that will bring about the desired 
results, and so each test that you would refer to would have to 
be driven by that holistic context, we call it, just that 
combined context of the people involved.
    Then actions are chosen or not. And as Judy mentioned, we 
do the early warning, monitoring of the ecosystem processes to 
ensure that the land is moving in the direction it needs to go, 
the economy is moving in the direction, the economics related 
to that project, and the needs of the people are being met.
    So in that sense, the point I'm in short trying to make, 
there's no list of prescribed actions or best management 
practices. All those types of things, which are good, need to 
be, though, tested, filtered toward are they keeping us within 
the context that we're trying to work with in creating what 
we're trying to create?
    Mrs. Lummis. Thank you, Mr. Shelton.
    Ms. Schwartz, you are recognized to respond as well with my 
gratitude for your being here.
    Mr. Schwartz. Well, thank you very much. I concur in that 
it is very possible to bring this understanding and apply this 
knowledge set of practices, decisionmaking framework, however 
one characterizes it, to Federal lands. And I guess what I 
would say is, perhaps the most important aspect of this 
discussion is to know that it's possible--to know that it's 
possible to restore landscapes at large scale because I don't 
think that that is generally understood.
    And I also believe that through my reporting, observations 
and talking to people, that what interferes with our being able 
to improve our landscapes, to help them be more resilient to 
fire and floods and droughts, and have them be more vibrant and 
productive, in many ways, comes down to--what interferes with 
it is imagination. To know that it could get better.
    I think that it's very powerful when Allan Savory put up 
that image of the National Parkland that was all sand. Because 
I know that I might--had I not been studying and researching 
and all of this--go there and say, isn't that stark beauty? 
Because one assumes that it has always been that way and can 
never be any different. So we have lost, as we go through 
generations where many of our lands are losing function, we 
think that it's always been that way and we don't understand 
how lush and productive and vibrant our landscapes can be.
    Mrs. Lummis. Well, I cannot express enough my gratitude 
that you both traveled all this way and prepared testimony and 
have presented your thoughts to this committee and for the 
record.
    This is the beginning of a dialogue. We are now 15, 16 
years into this 21st century and have a long way to go to 
absorb and understand the scientific growth that you understand 
and how to use it for the betterment of the land and water 
resources that you have discussed today.
    So you've enlightened the discussion. I hope this is the 
first of many opportunities for Congress to begin to use the 
information that you have provided today to produce on-the-
ground results that will allow us to hand our children and our 
children's children a better landscape and better understanding 
of how to manage it.
    So I wanted to thank you both for the work you do in this 
area and for taking the time to appear before this committee 
today to enlighten this discussion.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
